OIG Investigative Reports Press Release Oakland CA., 02/18/2014 - Three Defendants Plead Guilty In Federal Student Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of CALIFORNIA
NEWS
Three Defendants Plead Guilty In Federal Student Aid Fraud Scheme
FOR IMMEDIATE RELEASE
February 18, 2014
OAKLAND – Kyle Edward Moore, Cortio Detrice Wade, and Marcel Devon Bridges pleaded guilty on February 14, 2014, in federal court in Oakland to conspiracy to commit financial aid fraud and wire fraud, United
States Attorney Melinda Haag announced.
In pleading guilty, Moore, Wade, and Bridges admitted to conspiring to obtain federal student aid funds offered under the Title IV Federal Student Assistance Program. Moore and his co-defendants obtained the aid
by preparing and transmitting fraudulent Free Applications for Federal Student Aid (FAFSAs) to the U.S. Department of Education.
In carrying out the fraud scheme, Moore and his co-defendants recruited third-parties to serve as “straw students” and then assisted the straw students in preparing, signing, and transmitting fraudulent FAFSAs
knowing that many of the straw students were not eligible to obtain Title IV funds because, among other things, the straw students had not obtained high school diplomas or a recognized equivalent and had no intention
of attending school or using the funds for educational purposes. After receiving the student loan funds, Moore and his co-defendants would share the fraudulently obtained funds among themselves and sometimes with
the straw students.
Moore, Wade, and Bridges admitted to defrauding the Department of Education in the amounts of $771,268, $136,088, and $114,734, respectively.
Moore, Wade, and Bridges were indicted by a federal Grand Jury on August 15, 2013. They were charged with conspiracy to commit financial aid fraud in violation of 18 U.S.C. § 371, and with multiple counts of wire
fraud in violation of 18 U.S.C. § 1343. Pursuant to their plea agreements, Moore pleaded guilty to two counts of conspiracy and one count of wire fraud; Bridges pleaded guilty to one count of conspiracy and one count of
wire fraud; and Wade pleaded guilty to one count of conspiracy and four counts of wire fraud.
Moore, Wade, and Bridges were released on bonds.
Moore and Bridges have a sentencing hearing scheduled for August 22, 2014. Wade has a sentencing hearing scheduled for September 19, 2014. Both sentencing hearings will be held before the Honorable Jon S. Tigar,
United States District Court Judge, in Oakland. The maximum statutory penalty for each count of conspiracy to commit financial aid fraud in violation of 18 U.S.C. § 371 is five years in prison, a fine of $250,000 or twice the
gross gain or loss, whichever is greater, and restitution. The maximum penalty for each count of wire fraud in violation of 18 U.S.C. § 1343 is twenty years in prison, a fine of $250,000 or twice the gross gain or loss,
whichever is greater, and restitution. However, any sentence will be imposed by the court only after consideration of the U.S. Sentencing Guidelines and the federal statute governing the imposition of a sentence, 18 U.S.C.
§ 3553.
AUSA Wade M. Rhyne is the Assistant U.S. Attorney who is prosecuting the case with the assistance of Janice Pagsanjan and Patty Lau. The prosecution is the result of an investigation by the U.S. Department of
Education, Office of the Inspector General, the Federal Bureau of Investigation, and the U.S. Department of Housing and Urban Development, Office of the Inspector General.
(Moore indictment - PDF)
Top
Printable view
Last Modified: 02/26/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov